Appellate Case: 21-2005

Document: 010110530739

Date Filed: 06/03/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

Page: 1

FILED
United States Court of Appeal
Tenth Circuit
June 3, 2021
Christopher M. Wolpert
Clerk of Court

BARBARA SILVA,
Plaintiff - Appellant,
v.

UNITED STATES OF AMERICA,

No. 21-2005
(D.C. No. 1:17-CV-01224-MV-JHR)
(D.N.M.)

Defendant - Appellee.

ORDER AND JUDGMENT*

Before MORITZ, BALDOCK, and EID, Circuit Judges.

Barbara Silva, proceeding pro se,1 appeals the district court’s order dismissing
her lawsuit against the United States as barred by sovereign immunity. For the
reasons explained below, we affirm.

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and collateral estoppel.
But it may be cited for its persuasive value. See Fed. R. App. P. 32.1(a); 10th Cir. R.
32.1(A).
i
We liberally construe pro se filings. See Garrett v. Selby Connor Maddux &
Janer, 425 F.3d 836, 840 (10th Cir. 2005). But we do not act as a pro se litigant’s
advocate by, for example, “constructing arguments” or “searching the record” for
support. Id.

Appellate Case: 21-2005

Document: 010110530739

Date Filed: 06/03/2021

Page: 2

Silva’s complaint alleges that when first assigning her a Social Security
number in 1976, the Social Security Administration negligently assigned her a
number that had already been assigned to another individual. The Administration
issued her a new and unique Social Security number in 1993. But it did not admit to
its initial mistake until 2015, after a senator intervened—and after Silva had allegedly
endured decades of negative consequences, including impacts on her credit report and
the loss of her military career when the individual who shared her Social Security
number declared bankruptcy.
As a result, Silva filed this action, seeking damages from the federal
government under the Federal Tort Claims Act (FTCA), 28 U.S.C. § 1346. A
magistrate judge reviewed her complaint and reasoned, “based on the injuries to
reputational and economic interests for which . . . Silva is claiming damages,” that
her claims “sound[ed] in defamation, negligent misrepresentation, interference with
contractual rights, and negligent or intentional infliction of emotional distress.”
R. 196. The magistrate judge concluded that most of these claims were accordingly
barred by 28 U.S.C. § 2680(h), which provides that the government may not be sued
in tort for “[a]ny claim arising out of assault, battery, false imprisonment, false arrest,
malicious prosecution, abuse of process, libel, slander, misrepresentation, deceit, or
interference with contract rights.” And the claims that withstood § 2680(h)
negligent or intentional infliction of emotional distress—failed to state a claim for
which relief could be granted because Silva’s allegations did not satisfy the elements

2

Appellate Case: 21-2005

Document: 010110530739

Date Filed: 06/03/2021

Page: 3

of these claims under New Mexico law.2 The magistrate judge therefore
recommended dismissing the action for lack of subject-matter jurisdiction. See JGE
ex rel. Tasso v. United States, 772 F. App’x 608, 611 (10th Cir. 2019) (holding that
applicability of FTCA exceptions and “plaintiffs[’] fail[ure] to demonstrate
analogous tort liability under New Mexico state law, as required by 28 U.S.C.
§ 1346(b)(1),” are “[b]oth issues [that] implicate the district court’s subject-matter
jurisdiction because both are conditions on the government’s waiver of its sovereign
immunity”). The district court agreed with the magistrate judge’s analysis and
dismissed the action without prejudice.
Silva now appeals. We review de novo the district court’s dismissal of the
action for lack of subject-matter jurisdiction under the FTCA. See Estate of
Trentadue ex rel. Aguilar v. United States, 397 F.3d 840, 852, 854 (10th Cir. 2005).
Silva first argues that the district court “[erroneously congregated] the entire
case to [d]efamation and/or discretionary[-]function exceptions.” Aplt. Br. 3. But the

2 The New Mexico Supreme Court has explained that negligent infliction of
emotional distress “is an extremely narrow tort that compensates a bystander who has
suffered severe emotional shock as a result of witnessing a sudden, traumatic event
that causes serious injury or death to a family member.” Fernandez v. Walgreen
Hastings Co., 968 P.2d 774, 777 (N.M. 1998). And a claim of intentional infliction of
emotional distress requires the plaintiff to show “extreme and outrageous conduct,”
meaning conduct “which is ‘so outrageous in character, and so extreme in degree, as
to go beyond all possible bounds of decency, and to be regarded as atrocious, and
utterly intolerable in a civilized community.’” Trujillo v. N. Rio Arriba Elec. Coop.,
Inc., 41 P.3d 333, 342-43 (N.M. 2001) (quoting Restatement (Second) of Torts § 46
cmt. d (Am. L. Inst. 1965)). As the district court put it, although “the conduct. . .
Silva alleges is highly unfortunate and has no doubt caused her emotional distress
over many years, she has not made out an actionable case of negligent or intentional
infliction of emotional distress under th[is] prevailing law.” R. 215.
3

Appellate Case: 21-2005

Document: 010110530739

Date Filed: 06/03/2021

Page: 4

district court did not rely on § 2680(a)’s discretionary-function exception to dismiss
the case; indeed, because the government did not invoke this exception, neither the
magistrate judge nor the district court even considered it. Nor did the district court
“[d]ecide[] that the facts on the case were based only on defamation,” as Silva
argues. Id. at 4. The district court simply agreed with the magistrate judge that, “/<?
the extent that. . . Silva claims damages to her reputation as a result of the
Administration’s false statements, the United States retains immunity” based on
§ 2680(h)’s exceptions for libel and slander. R. 197 (emphasis added). The magistrate
judge and district court also found her complaint to sound in misrepresentation,
interference with contractual rights, and negligent or intentional infliction of
emotional distress, and the district court explained why these other types of claims
also failed to establish subject-matter jurisdiction under the FTCA. And Silva does
not address these other aspects of the district court’s decision; she only disclaims any
intention of raising a defamation claim. This argument is thus based on a misreading
of the district court’s decision, and it fails to establish reversible error.
Second, Silva argues that the United States should be subject to suit under the
FTCA because a private person in the government’s position would be liable for the
alleged wrongful conduct. However, although the FTCA generally waives sovereign
immunity for government torts for which a private person would be held liable, this
general waiver is subject to the specific exceptions listed in § 2680(h). See Ecco
Plains, LLC v. United States, 728 F.3d 1190, 1195 (10th Cir. 2013). And Silva has
not shown that the district court erred in concluding that most of her claims were
4

Appellate Case: 21-2005

Document: 010110530739

Date Filed: 06/03/2021

Page: 5

barred by these exceptions. Further, although her emotional-distress claims are not
subject to § 2680(h)’s exceptions, she does not cite to any case in which a private
person was found liable for the infliction of emotional distress in similar
circumstances, nor does she challenge the district court’s conclusion that the
allegations in her complaint failed to state a valid emotional-distress claim.
Third, Silva appears to argue that the district court erred in dismissing the case
for lack of subject-matter jurisdiction because Silva alleged a sufficient injury to
establish Article III standing. However, the questions of standing and sovereign
immunity are separate inquiries; both must be satisfied in order for a plaintiff to
proceed in a suit against the government. See Branson Sch. Dist. RE-82 v. Romer,
161 F.3d 619, 631 (10th Cir. 1998) (addressing question of sovereign immunity after
separately holding that plaintiffs “alleged a sufficient ‘injury-in-fact’ for purposes of
Article III standing”). Regardless of whether Silva established Article III standing,
the district court could not exercise subject-matter jurisdiction over claims for which
the government had not waived its sovereign immunity. See JGE, 772 F. App’x at
611.
Lastly, Silva’s reply brief includes several new arguments. For instance, she
seems to raise a new theory of government liability, suggesting that the district court
should have treated her complaint as an action under the Administrative Procedures
Act or some other statute, rather than as an FTCA action. But “issues raised by an
appellant for the first time on appeal in a reply brief are generally deemed waived,”
even when the appellant is pro se. Wheeler v. Comm ’r, 521 F.3d 1289, 1291 (10th
5

Appellate Case: 21-2005

Document: 010110530739

Date Filed: 06/03/2021

Page: 6

Cir. 2008). We accordingly will not address the issues that Silva raises for the first
time in her reply brief. See id.
In conclusion, we agree with the district court that “the conduct. . . Silva
alleges is highly unfortunate,” but these unfortunate circumstances do not negate her
responsibility to establish a valid claim for relief against the government. R. 215.
Because Silva has not shown that the district court erred in dismissing this action
without prejudice based on the government’s sovereign immunity under the FTC A,
we affirm.
Entered for the Court

Nancy L. Moritz
Circuit Judge

6

Case l:17-cv-01224-MV-JHR Document 49 Filed 01/04/21 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
BARBARA SILVA,
Plaintiff,
v.

No. 17-CV-1224 MV/JHR

UNITED STATES OF AMERICA,
Defendant.
MEMORANDUM OPINION AND ORDER OVERRULING PLAINTIFF’S
OBJECTIONS AND ADOPTING MAGISTRATE JUDGE RITTER’S SUPPLEMENTAL
PROPOSED FINDINGS AND RECOMMENDED DISPOSITION
THIS MATTER is before the Court on the Defendant United States’ Motion to Dismiss
or, in the Alternative, Motion for Summary Judgment and Memorandum in Support. Doc. 31. In
it, the United States asks the Court to dismiss pro se Plaintiff Barbara Silva’s claim under the
Federal Tort Claims Act (FTCA) that the United States caused her various financial and
professional injuries when the Social Security Administration (SSA) assigned her the same Social
Security Number (SSN) as another individual. See id. at 3. Ms. Silva seeks the “maximum relief’
under the FTCA for the failures of SSA employees in: (1) issuing her the incorrect SSN;
(2) ensuring the accuracy of the issuing employee’s actions; and (3) recognizing the discrepancy
in her retirement income as wages were earned. Doc. 23 at 1, 3, 4. Ms. Silva filed a response in
opposition to the Motion to Dismiss [Doc. 34] and the United States did not file a reply. United
States Magistrate Judge Jerry H. Ritter submitted his first Proposed Findings and Recommended
Disposition (PFRD) recommending that this Court grant the United States’ motion and dismiss
Ms. Silva’s lawsuit without prejudice for failure to timely bring suit within the FTCA’s statute of
limitations. Doc. 42. Ms. Silva timely objected to the PFRD and this Court sustained her Written

1

Case l:17-cv-01224-MV-JHR Document 49 Filed 01/04/21 Page 2 of 6

Objections [Doc. 43] and remanded the case to Magistrate Judge Ritter for further analysis of the
remaining issues in the United States’ Motion to Dismiss. Doc. 44.
Concluding that the Court lacks subject matter jurisdiction over Ms. Silva’s claims because
the FTCA’s exceptions apply, Magistrate Judge Ritter issued his Supplemental Proposed Findings
and Recommended Disposition on November 12,2020 [Doc. 46] and Ms. Silva filed timely written
objections on November 25, 2020. Doc. 47. For the reasons stated below, the Court will
OVERRULE Ms. Silva’s objections, ADOPT the disposition recommended in the PFRD,
GRANT the United States’ motion [Doc. 31] and DISMISS this case WITHOUT PREJUDICE.

BACKGROUND
In his Supplemental PFRD, Magistrate Judge Ritter recommends that the Court dismiss
Ms. Silva’s lawsuit without prejudice because the statutory exceptions in the FTCA, as construed
by various courts across the country, bar her claims. See Doc. 46 at 7-11 (citing 28 U.S.C.
§ 2680(h)). According to the Magistrate Judge, Ms. Silva’s claims, properly construed in light of
the reputational and economic interests at stake, sound in: defamation, misrepresentation,
interference with contractual rights, and infliction of emotional distress, all which are precluded
by Section 2680(h) of the FTCA2 or New Mexico common law as applied to the facts of this case.
Doc. 46 at 7. The Magistrate Judge reasons that if Ms. Silva seeks to recover for harm to her
reputation due to defamatory statements made (implicitly or explicitly) by the SSA, her claims
sound in defamation. Doc. 46 at 8-9 (citing Jimenez-Nieves v. U.S., 682 F.2d 1, 3-4 (1st Cir.

As Magistrate Judge Ritter noted, “a dismissal for lack of jurisdiction is not an adjudication of the merits
and therefore dismissal must be without prejudice.” Doc. 46 at 1 n.l (quoting Brown v. Buhman, 822 F.3d
1151, 1179 (10th Cir. 2016) (quoted authority and internal alterations omitted)).
2 Section 2680(h) lists exceptions to the FTCA over which the United States continues to enjoy sovereign
immunity from suit. These exceptions include “[a]ny claim arising out of ... libel, slander,
misrepresentation, deceit, or interference with contract rights.” See 28 U.S.C. § 2680(h).
2

Case l:17-cv-01224-MV-JHR Document 49 Filed 01/04/21 Page 3 of 6

1982); Bergman v. U.S., 751 F.2d 314, 317 (10th Cir. 1984); Moessmer v. U.S., 760 F.2d 236,
237-38 (8th Cir. 1985); Talbert v. U.S., 932, F.2d 1064 (4th Cir. 1991); Smith v. Surden, 2012NMSC-010, T[ 34, 276 P.3d 943). To the extent that Ms. Silva seeks to recover for pecuniary loss
resulting from the SSA’s failure to use care in communicating her economic information or in
interfering with her prospective economic advantage, the Magistrate Judge found that her claims
sound in misrepresentation or interference with contract rights. Doc. 46 at 9-10 (citing Estate of
Trentadue ex rel. Aguilar v. U.S., 397 F.3d 840, 854-55 (10th Cir. 2005); Bergman, 751 F.2d at
317; Moessmer, 760 F.2d at 237-38). Finally, the Magistrate Judge found that, to the extent that
Ms. Silva retains common law claims for negligent or intentional infliction of emotional distress
by the SSA outside of these exceptions, she fails to state a claim under New Mexico law because
the facts of this case do not satisfy the elements of those torts. .See Doc. 46 at 10 (citing Castillo
v. City ofLas Vegas, 2008-NMCA-141, 145 N.M. 205, 195 P.3d 870).
In her written objections to the Supplemental PFRD, Ms. Silva argues that “this case is a
personal injury tort negligence case and does not sound in defamation nor does it fall under any of
the exceptions under 2680(h).” Doc. 47 at 5 (citing Quinones v. United States, 492 F.2d 1269 (3rd
Cir. 1974)). She then submits that the interference with contractual relations exception does not
apply because Social Security is not a contract and the SSA’s actions were intentional, though she
later admits that “[n]ot following basic techniques to ensure accuracy ... is a failure to exercise
duty of care” sounding in negligence. Id. Ms. Silva also recognizes that New Mexico allows
recovery for stand-alone emotional distress only in limited circumstances, but she argues that the
specialized nature of her contractual relationship with the administration “naturally contemplated
that reasonable care would be taken to avoid the infliction of severe emotional distress.” Doc. 47
at 3. Ms. Silva concludes by asserting she is entitled to compensation for the SSA’s abuse of its

3

Case l:17-cv-01224-MV-JHR Document 49 Filed 01/04/21 Page 4 of 6

governmental authority, drawing the analogy that private insurance companies are held
accountable for errors that they make. Id. at 8. She asks the Court to reject the Supplemental
PFRD and deny the Unites States’ Motion to Dismiss. Id.
The United States also filed a Request for Supplementation and Recommendation to Report
in which it agrees with the Magistrate Judge’s dismissal of the case but disagrees with the
Magistrate Judge’s rejection of its argument that Ms. Silva’s claims should be barred by Section
405(h) of the Social Security Act because they “arise” under the Act. Doc. 46 at 1. The United
States submits that the “SSA typically takes a more expansive read of [the bar on lawsuits in]
§ 405(h)” but it does not cite any legal authority to explain why the SSA’s broader interpretation
of that section is correct. See id. The Court finds that it need not resolve this issue because it
agrees with the United States’ other bases for dismissal which the Magistrate Judge adopted in his
PFRD.
DISCUSSION
District Judges may refer dispositive motions to Magistrate Judges for proposed findings
and a recommended disposition pursuant to 28 U.S.C. § 636 and Rule 72 of the Federal Rules of
Civil Procedure. See 28 U.S.C. § 636(b)(1)(B); Fed. R. Civ. P. 72(b)(1). “Within 14 days after
being served with a copy of the [magistrate judge’s] recommended disposition, a party may serve
and file specific written objections to the proposed findings and recommendations.” 28 U.S.C.
§ 636(b)(1); Fed. R. Civ. P. 72(b)(2). To preserve an issue for review, a party’s objections must
be “both timely and specific.” United States, v. One Parcel of Real Prop., 73 F.3d 1057, 1060
(10th Cir. 1996).

In reviewing such objections, the district judge must “make a de novo

determinations of those portions of the [PFRD] ... to which objection is made.” 28 U.S.C.
§ 636(C); see also Fed. R. Civ. P. 72(b)(3). While the district judge must conduct a de novo review

4

Case l:17-cv-01224-MV-JHR Document 49 Filed 01/04/21 Page 5 of 6

of the record, no specific findings are required, and the Court may place whatever reliance it
chooses on the magistrate judge’s recommendation. See Garcia v. City of Albuquerque, 232 F.3d
760 (10th Cir. 2000); United States v. Raddatz, 447 U.S. 667, 676 (1980).
Ms. Silva does not disagree with the applicable legal standards set out by the Magistrate
Judge. As noted, her disagreement is that her claims sound in intentional conduct and are thereby
excluded from the FTCA’s waiver of liability by Section 2680(h). Although at points she argues
that the SSA’s actions were intentional, Ms. Silva primarily argues that the SSA’s failures were in
exercising a duty of reasonable care—textbook negligence. Having considered Ms. Silva’s
objections and conducted a de novo review of the record, the Court overrules her objections. The
one case supporting Ms. Silva’s position that her claim does not sound in an exception to the
FTCA, Quinones, 492 F.2d 1269, reasoned that defamation is distinct from and cannot be caused
by simple negligence—permitting suit for reputational injuries arising from the negligent failure to
maintain personnel records. This proposition has been rejected by several other federal courts of
appeals, including the Tenth Circuit. See Jimenez-Nieves, 682 F.2d 1 at 3; Bergman, 751 F.2d at
317; Moessmer, 760 F.2d at 237-38; Talbert, 932, F.2d at 1067. Ms. Silva has presented no
compelling or binding authority sufficient to permit the Court to depart from this majority
reasoning.

To the extent that Ms. Silva argues that her contractual relationship with the

administration gave rise to a special duty of care under New Mexico law, the Court notes that
Social Security is not a contract (which Ms. Silva admits). Moreover, any economic loss resulting
from interference with future contracts Ms. Silva attempted to enter because of the SSA’s failures
are barred by Section 2680(h)’s exception for “claimfs] arising out of... interference with contract
rights.” § 2680(h).

5

Case l:17-cv-01224-MV-JHR Document 49 Filed 01/04/21 Page 6 of 6

Finally, Ms. Silva has alleged no conduct and provided no authority that permits the Court
to allow a common-law claim of negligent or intentional infliction of emotional distress to proceed
here, as the Magistrate Judge explains. See Doc. 46 at 10. As the New Mexico Supreme Court
explained in Fernandez v. Walgreen Hastings Co., 1998-NMSC-039, 126 N.M. 263, 968 P.2d 774,
negligent infliction of emotional distress is an “extremely narrow tort that compensates a bystander
who has suffered severe emotional shock as a result of witnessing a sudden, traumatic event that
causes serious injury or death to a family member.” Id. at 111. And to make out a case of
intentional infliction of emotional distress, Ms. Silva must plead conduct on the part of the United
States that is “extreme and outrageous,” a standard which has been described as requiring conduct
that is “so outrageous in character, and so extreme in degree, as to go beyond all possible bounds
of decency, and to be regarded as atrocious, and utterly intolerable in a civilized community.”
Castillo, 195 P.3d at 876 (citations and internal quotations omitted). The Court agrees with the
Magistrate Judge’s conclusion that while the conduct Ms. Silva alleges is highly unfortunate and
has no doubt caused her emotional distress over many years, she has not made out an actionable
case of negligent or intentional infliction of emotional distress under the prevailing law.
CONCLUSION
Ms. Silva suffered a wrong at the hands of the federal government and has experienced
resulting financial and emotional harm. Unfortunately, as the Magistrate Judge found, the FTCA
expressly bars her financial claims and New Mexico common law does not recognize her
emotional distress claim. The Court accordingly concludes that the United States’ Motion [Doc.
31] must be GRANTED, and that this case must be DISMISSED WITHOUT PREJUDICE.
/

Dated this 4th day of January, 2021.

M ARTH A'WCZQ UE^
United States District Judge
6

Case l:17-cv-01224-MV-JHR Document 42, Filed 05/16/20 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
BARBARA SILVA,
Plaintiff,
v.

CV 17-1224 MV/JHR

UNITED STATES OF AMERICA,
Defendant.

PROPOSED FINDINGS AND RECOMMENDED DISPOSITION
This matter comes before the Court pursuant to the Order of Reference entered by presiding
District Judge Martha Vazquez on August 28, 2019, which directed the undersigned Magistrate
Judge to “perform any legal analysis required to recommend to the Court an ultimate disposition
of [this] case.” [Doc. 39], The Court has carefully reviewed the docket, including Defendant’s
Motion to Dismiss or, in the Alternative, Motion for Summary Judgment and Memorandum in
Support [Doc. 31] and Ms. Silva’s Response in Opposition to the government’s Motion [Doc. 34],
Having done so, the Court finds that it lacks subject matter jurisdiction to consider Ms. Silva’s
claims under the Federal Tort Claims Act (“FTCA”), and therefore recommends that this case be
dismissed without prejudice. i
I.

INTRODUCTION
There is no question that Ms. Silva has been harmed. There is also no question that the

United States government all but admitted fault for at least some of the harm Ms. Silva has endured
because of its negligence in a letter it sent to her in November 2015. [Doc. 31-1, p. 7],

1 “It is fundamental, of course, that a dismissal for lack of jurisdiction is not an adjudication of the merits and therefore
dismissal must be without prejudice.” Brown v. Buhman, 822 F.3d 1151, 1179 (10th Cir. 2016) (quoted authority and
internal alterations omitted).

1

Case l:17-cv-01224-MV-JHR Document 42 Filed 05/16/20 Page 2 of 7

Unfortunately, the government’s admission of fault in 2015 does not mean it must now pay Ms.
Silva damages for what no one disputes happened in 1976 - when it issued her a social security
number that belonged to another individual. The reason for this is straightforward. While the
government is ordinarily immune from suit, Congress partially waived this immunity by enacting
the FTCA. However, Congress also put a time limit on a victim’s ability to pursue a claim: two
years from the date the claim accrues. Ms. Silva argues that her claims in this case did not accrue
until the government admitted fault in 2015, but the Court cannot agree. While the Court is not
holding that Ms. Silva’s claims necessarily accrued in 1993, it also finds that a reasonable person
in Ms. Silva’s position knew or should have known enough to seek professional representation or
otherwise diligently search for the cause of her harm so as to enable her to pursue a claim sometime
before 2015 (22 years after she was first made aware of the problem). To conclude otherwise
would relieve Ms. Silva of her independent duty to protect her own legal and financial interests
and undermine Congress’ intent to place a reasonable temporal limitation on redress for the
government’s wrongful acts. Because the Court finds that a reasonable person in Ms. Silva’s
position should have discovered the cause of her damages before 2015, it must conclude that her
suit against the government is barred by the FTCA’s limitations provision - meaning that the Court
lacks subject matter jurisdiction over this case, and that the case should be dismissed without
prejudice.
II.

BACKGROUND1
Ms. Silva was issued a social security number that belonged to someone else when she was

10 years old, in June of 1976. [Doc. 23, p. 1], In late 1992, while she was enlisted in the Navy, Ms.

2 The Court views the government’s invocation of Rule 12(b)(1) and recitation of pertinent facts as alleged by Ms.
Silva as a facial attack on the operative Complaint’s invocation of the subject matter jurisdiction of the Court.
Accordingly, the Court assumes the truth of the facts asserted in Ms. Silva’s Complaint for the purposes of this
decision. See Holtv. U.S., 46 F.3d 1000, 1002-1003 (10th Cir. 1995).

2

Case l:17-cv-01224-MV-JHR Document 42 Filed 05/16/20 Page 3 of 7

Silva learned that a garnishment action was entered against her. [Id.]. In January 1993 she went to
a Social Security Administration office and explained that someone else was using her social
security number (“SSN”), that she had to keep clearing her credit report, and that she believed
identity theft was involved. [Id, p. 2], While it issued Ms. Silva a new social security number and
transferred wages paid from the old number to the new number for retirement purposes, the
Administration did not correct Ms. Silva’s impression that her identity had been stolen, and refused
to provide sufficient documentation to allow Ms. Silva to clear her name and continue serving in
the Navy, resulting in her decision to accept an honorable discharge after 15 years of service.
Plagued by creditors and governmental entities for years, Ms. Silva began reaching out to
politicians for assistance in compelling the Administration to respond. Relevant here, she wrote to
Senator Martin Heinrich in September 2015 seeking assistance, explaining that the Administration
issued the same social security number to her and another person and that she had tried and failed
to change her military records so she could re-enlist. [Doc. 31-1, p. 12], In response to this inquiry
Ms. Silva received a letter from the office of the Regional Commissioner of Social Security in
November 2015, admitting “fault in assigning you the Social Security number - xxx-xx-xxxx previously assigned to another individual....” [Doc, 31-1, p. 7], In closing, the Administration
stated its sincere regret for “the error and the problems and inconvenience [Ms. Silva] experienced”
as a result of its error. [Id.].
In April 2017 Ms. Silva submitted an administrative claim to the Administration, which it
denied on June 13, 2017. [Doc. 31-1, pp.1-2]. Ms. Silva then filed suit against the Administration
on December 13, 2017. [Doc. 1], After the Court determined that her claims arise under the Federal
Tort Claims Act (rather than the Social Security Act) the Court substituted the United States as the
proper Defendant. [See Doc. 26], The government answered the operative Complaint on May 21

3

Case l:17-cv-01224-MV-JHR Document 42 Filed 05/16/20 Page 4 of 7

2019. [See Docs. 23, 25]. The government filed its Motion to Dismiss on July 25, 2019. [Doc. 31].
Ms. Silva responded on August 5, 2019, [Doc. 34], and supplemented her claim with additional
evidence (a letter certifying that she is receiving service-connected disability compensation from
the Department of Veterans Affairs) on December 2, 2019. [Doc. 40].
In its Motion to dismiss, the government argues that, among other things, Ms. Silva’s
failure to file her administrative claim for damages within two years of the incident bars her suit
under the FTCA’s statute of limitations. [Doc. 31, p. 8]. The government contends that once Ms.
Silva was aware of the problem with her social security number in late 1992 and the Administration
refused to provide her with adequate documentation to satisfy the Navy in early 1993 she was both
aware of her injury and its cause, meaning she was required to file suit before January, 1995. [Id.,
p. 9], In response, Ms. Silva argues that her claims against the government did not accrue until it
admitted fault in November 2015, meaning she had until November 2017 to file suit because the
cause of her injury was “inherently unknowable” and incapable of detection despite her reasonable
diligence until the government admitted fault. [See Doc. 34, pp. 4, 8, 13, 15].
The government’s Motion asserts that this case must be dismissed for lack of subject matter
jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1). [Doc. 31, p. 4], Thus, the
determinative question here, and the linchpin of whether this Court has subject matter jurisdiction
to hear Ms. Silva’s claims, is whether her administrative claim accrued before April 2015 so that
her claim was extinguished before it was filed in April 2017.
III.

LEGAL STANDARDS
Federal courts are courts of limited jurisdiction, and they must presume that they lack

jurisdiction unless the party invoking federal jurisdiction proves otherwise. See Kucera v. Central
Intelligence Agency, 754 F. App’x 735, 738 (10th Cir. 2018) (unpublished). While pro se litigants

4

Case l:17-cv-01224-MV-JHR Document 42 Filed 05/16/20 Page 5 of 7

are afforded liberal construction of their pleadings, they are required to establish jurisdiction just
as any represented party. Id.
As summarized by the Tenth Circuit in Bayless v. U.S., 767 F.3d 958 (10th Cir. 2014), the
Federal Government and its agencies are generally immune from suit except where immunity is
waived through positive law, such as the enactment of the FTCA. See id. at 964-965 (citations
omitted). Federal courts lack jurisdiction over tort claims against the government unless they are
brought within the confines of the FTCA, which decrees that a tort claim against the government
is “forever barred unless it is presented to the appropriate Federal agency within two years after
such claim accrues.” 28 U.S.C. § 2401(b). Section 2401(b) thus requires reasonably diligent
presentation of tort claims against the Government. Bayless, 767 F.3d at 964-965.
Ordinarily, the general accrual rule for FTCA claims is the “injury-occurrence rule,” but
in “exceptional” cases courts apply the “discovery rule”: “the date of accrual is when that
reasonably diligent plaintiff knows or should have known of both the existence and cause of the
injury.” Id. (citation omitted). The parties’ arguments assume that the discovery rule applies here,
and the Court agrees. The disagreement lies in when Ms. Silva discovered, or should have
discovered, her injury and its cause.
IV.

ANALYSIS
The Court rejects the government’s position that Ms. Silva’s claim accrued as soon as she

was denied an acceptable letter for the purposes for re-enlisting with the Navy in early 1993.
However, the Court also rejects the notion that Ms. Silva could wait for over 20 years, all the while
enduring creditors and independently seeking to clear her name, to investigate and to bring a claim
against the government to recover damages resulting from its negligent act (which itself occurred
in 1976). The Social Security Administration’s failure to provide Ms. Silva with appropriate

5

Case l:17-cv-01224-MV-JHR Document 42 Filed 05/16/20 Page 6 of 7

documentation to permit her to re-enlist with the Navy was one of many events that should have
put Ms. Silva on notice that suit against the government was a possibility, if not necessary. As the
Supreme Court recognized in 1979 and the Tenth Circuit reiterated in 1991, “[a]ccrual need not
await ‘awareness by the plaintiff that [her] injury was negligently inflicted.’” Bradley v. Veterans
Admin., 951 F.2d 268, 270 (10th Cir. 1991) (quoting U.S. v. Kubrick, 444 U.S. Ill, 123 (1979)).
As stated in Kubrick, the Supreme Court was
unconvinced that for statute of limitations purposes a plaintiffs ignorance of [her]
legal rights and [her] ignorance of the fact of [her] injury or its cause should receive
identical treatment. That [s]he has been injured in fact may be unknown or
unknowable until the injury manifests itself; and the facts about causation may be
in the control of the putative defendant, unavailable to the plaintiff or at least very
difficult to obtain. The prospect is not so bleak for a plaintiff in possession of the
critical facts that [s]he has been hurt and who has inflicted the injury. [Sh]e is no
longer at the mercy of the latter. There are others who can tell [her] if [s]he has
been wronged, and [s]he need only ask.
444 U.S. at 122. What this means for Ms. Silva is that she was required to at least seek help, like
hiring an attorney to investigate her claims, in order to toll the discovery period. Waiting over 20
years for the government to affirmatively admit fault before submitting a claim for damages for
malfeasance committed decades earlier simply cannot be considered “reasonably diligent” for the
purposes of the discovery rule.
The exact date Ms. Silva’s claims accrued is not clear on the present record but, contrary
to her position, it is clear that Ms. Silva was aware of the extent and cause of her injuries before
the government admitted fault in November 2015. [Doc. 31-1, p. 12], Moreover, even if the Court
were to assume that Ms. Silva was not subjectively aware of the cause of her injuries, a reasonably
diligent person in her position should have known or would have inquired further into the cause
of her troubles before 2015. Without such a record here, Ms. Silva’s administrative claim, and by
extension this lawsuit, are untimely.

6

Case l:17-cv-01224-MV-JHR Document 42 Filed 05/16/20 Page 7 of 7

V.

RECOMMENDATION
Because Ms. Silva was aware or should have been aware of both the existence and cause

of her claimed injuries more than two years before she finally decided to pursue a claim against
the government, the Court finds and concludes that she failed to bring suit within the limitations
period provided by the FTCA and that it lacks subject matter jurisdiction over this case. Therefore,
the undersigned recommends that the Court dismiss this case without prejudice.
Wherefore,
IT IS HEREBY RECOMMENDED that the United States’ Motion to Dismiss pursuant
to Federal Rule of Civil Procedure 12(b)(1) [Doc. 31] be granted, and that this case be dismissed
without prejudice.

Jerry H. Ritter
U.S. Magistrate Judge

THE PARTIES ARE FURTHER NOTIFIED THAT WITHIN 14 DAYS OF SERVICE of
a copy of these Proposed Findings and Recommended Disposition, they may file written
objections with the Clerk of the District Court pursuant to 28 U.S.C. § 636(b)(1).
A party must file any objections with the Clerk of the District Court within the fourteenday period if that party wants to have appellate review of the proposed findings and
recommended disposition. If no objections are filed, no appellate review will be allowed.

7

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
BARBARA SILVA,
Plaintiff,
CV 17-1224 MV/JHR

v.
UNITED STATES OF AMERICA,
Defendant.

SUPPLEMENTAL PROPOSED FINDINGS
AND RECOMMENDED DISPOSITION
This matter comes before the Court pursuant to the Order Sustaining Plaintiff s Objection
and Rejecting Magistrate Judge’s Proposed Findings and Recommended Disposition, [Doc. 44],
filed July 20, 2020, and the Order of Reference entered by presiding District Judge Martha
Vazquez on August 28, 2019, which directed Magistrate Judge Jerry Ritter to “perform any legal
analysis required to recommend to the Court an ultimate disposition of [this] case.” [Doc. 39].
Judge Vazquez rejected my recommendation that this case be dismissed without prejudice for lack
of subject matter jurisdiction under the Federal Tort Claims Act (“FTCA”) (untimeliness) and
remanded the case for further consideration of the grounds for dismissal stated in the United States’
Motion to Dismiss. [See Docs. 31,34,42 and 43]; see generally 28 U.S.C. § 2401. Having carefully
reviewed the briefing a second time and after consulting the applicable law, I conclude that the
Court still lacks subject matter jurisdiction to consider Ms. Silva’s claims under the FTCA, this
time because the Act’s exceptions apply, and therefore I again recommend that the government’s
motion be granted and that this case be dismissed without prejudice.

i

1 “It is fundamental, of course, that a dismissal for lack ofjurisdiction is not an adjudication of the merits and therefore
dismissal must be without prejudice.” Brown v. Buhman, 822 F.3d 1151, 1179 (10th Cir. 2016) (quoted authority and
internal alterations omitted).

1

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 2 of 11

I.

INTRODUCTION
The government mistakenly issued the same social security number to Ms. Silva that it had

already issued to another person. [Doc. 23, p. 1], There is no question that Ms. Silva was harmed
by the resulting confusion of identities over many years, and the government all but admitted fault
for at least some of the harm its negligence caused in a letter it sent to her in November 2015.
[Doc. 31-1, p. 7]. Unfortunately, the government’s admission of fault does not mean that Ms. Silva
can state a claim to recover monetary damages for its failures.
As a general matter, the United States government enjoys sovereign immunity, which has
only been waived in narrow circumstances by the Federal Tort Claims Act (“FTCA”). Even where,
as here, the government has clearly erred and admitted fault, recovery for certain torts, and by
extension, certain categories of damages, is prohibited by the language of the Act and case law
construing it. The wisdom of these prohibitions is for Congress to determine, and several federal
appellate courts, including the Tenth Circuit, have reasoned that claims analogous to Ms. Silva’s
cannot be brought even where a non-discretionary duty is identified. Finally, to the extent that Ms.
Silva’s non-contractual claims are not barred by the FTCA’s exceptions, she does not state a valid
claim for infliction of emotional distress under New Mexico law as required to recover under the
FTCA. Therefore, I again recommend that this case be dismissed without prejudice.
H.

BACKGROUND
Ms. Silva was issued a social security number that belonged to someone else when she was

10 years old, in June of 1976. [Doc. 23, p. 1], In late 1992, while she was enlisted in the Navy, Ms.
Silva became aware that a garnishment action was entered against her. [Id.]. In January 1993 she
went to a Social Security Administration office and explained that someone else was using her
social security number (“SSN”). [Id., p. 2], At that time, Ms. Silva told the Administration that she

2

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 3 of 11

had to keep clearing her credit report and that she believed identity theft was involved. [Id. ]. While
the Administration issued Ms. Silva a new social security number and transferred wages paid from
the old number to the new number for retirement purposes, it did not correct Ms. Silva’s impression
that her identity had been stolen and refused to provide sufficient documentation to allow Ms.
Silva to clear her name and continue serving in the Navy, resulting in her decision to accept an
honorable discharge after 15 years of service.
Plagued by creditors for years, Ms. Silva reached out to politicians to compel the
Administration to take meaningful action. She wrote to Senator Martin Heinrich in September
2015, explaining that the Administration issued the same social security number to her and another
person and that she had tried and failed to change her military records so she could re-enlist. [Doc.
31-1, p. 12], Upon the Senator’s inquiry, Ms. Silva received a letter from the office of the Regional
Commissioner of Social Security in November 2015, admitting “fault in assigning you the Social
Security number ... previously assigned to another individual....” [Doc, 31-1, p. 7 (ellipsis
supplied)]. The Administration stated its sincere regret for “the error and the problems and
inconvenience [Ms. Silva] experienced.” [Id],
After notifying the Administration that she intended to sue and receiving an administrative
denial, Ms. Silva filed her initial Complaint in this Court on December 13, 2017. [Doc. 1], Her
operative Complaint states three claims. [See Docs. 23, 26], First, Ms. Silva alleges that the Social
Security Administration employee who issued her (the already-issued) social security number had
a duty to ensure its accuracy. [Doc. 23, p. 3] Second, she claims that a second Administration
employee had a duty to verify the first employee’s actions to ensure accuracy. [Id.]. Third, Ms.
Silva states that the Administration had a duty to notice the discrepancies in her retirement earnings
as wages were earned and correct its mistake(s). [Id.; see also Doc. 23, p. 4]. As relief, she asks

3

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 4 of 11

that the Court hold the government accountable for its “deliberate indifference and negligent
errors” affecting her privacy rights through an award of damages pursuant to the Federal Tort
Claims Act and an order requiring the Administration to contact all private credit reporting and
governmental agencies to replace the incorrect number with the correct one. [Doc. 23, p. 8],
The government filed a Motion to Dismiss pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6) on July 25, 2019, claiming that Ms. Silva’s claims are barred because the
United States did not waive sovereign immunity under the FTCA. [Doc. 31, p. 5], First, the
government argued that Ms. Silva’s claims arise under the Social Security Act, not the Tort Claims
Act, leaving the Court without subject matter jurisdiction. [Id, pp. 5-7]. Second, the government
argued that Ms. Silva’s claims sound in defamation, which is excepted from the Tort Claims Act’s
waiver of immunity. [Id., pp. 7-8], Third, it argued that Ms. Silva’s claims were untimely. [Id., pp.
8-10]. Finally, the government argued that Ms. Silva’s claims are not cognizable under New
Mexico law, precluding its liability under the Federal Tort Claims Act’s waiver. [Doc. 31, pp. 1015]. Ms. Silva responded to the motion on August 5, 2019 and submitted additional evidence on
December 2, 2019. [Docs. 34, 40].
Finding the government’s timeliness argument persuasive, I recommended that Ms. Silva’s
claims be dismissed without prejudice for lack of federal subject matter jurisdiction on May 16,
2020. [Doc. 42]. Ms. Silva objected, and presiding District Judge Vazquez sustained her objections
on July 20, 2020. [Docs. 43, 44]. Judge Vazquez accordingly rejected my proposed disposition of
this case and remanded the matter to me for further analysis of the issues raised by the
government’s motion to dismiss. [Doc. 44, p. 1],

4

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 5 of 11

III.

LEGAL STANDARDS
The government’s Motion asserts that this case must be dismissed for lack of subject matter

jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1). [Doc. 31, p. 4], Federal courts
are courts of limited jurisdiction, and they must presume that they lack jurisdiction unless the party
invoking federal jurisdiction proves otherwise. See Kucera v. Central Intelligence Agency, 754 F.
App’x 735,738 (10th Cir. 2018) (unpublished). While filings of pro se litigants are afforded liberal
construction, all pleadings are held to this standard. Id. “Rule 12(b)(1) motions generally take one
of two forms: (1) a facial attack on the sufficiency of the complaint's allegations as to subject
matter jurisdiction; or (2) a challenge to the actual facts upon which subject matter jurisdiction is
based.” Ruiz v. McDonnell, 299 F.3d 1173, 1180 (10th Cir. 2002) (citation omitted). “On a facial
attack, a plaintiff is afforded safeguards similar to those provided in opposing a Rule 12(b)(6)
motion: the court must consider the complaint's allegations to be true.” De Baca v. United States,
403 F. Supp. 3d 1098, 1113 (D.N.M. 2019) (Browning, J.) (citation omitted). The Court finds that
the government’s jurisdictional arguments invoking sovereign immunity do not require analysis
of the facts underlying Ms. Silva’s claims; therefore, resolution of this case turns on the allegations
stated in the complaint. Garling v. United States Envtl. Prot. Agency, 849 F.3d 1289, 1293 n.3
(10th Cir. 2017) (“[Wjhen a defendant asserts that [a] FTCA complaint fails to allege sufficient
facts to support subject matter jurisdiction, the trial court must apply a standard patterned on Rule
12(b)(6) and assume the truthfulness of the facts alleged.”) (quoted authority omitted).
The government’s motion also relies on Federal Rule of Civil Procedure 12(b)(6), which
permits dismissal of a plaintiffs case for failure to state a claim only on review of the facts as
alleged. [See generally Doc. 31]. That is, when resolving motions brought under Rule 12(b)(6),
the Court accepts as true all well-pleaded factual allegations in the Complaint and views them in

5

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 6 of 11

the light most favorable to Ms. Silva, drawing all reasonable inferences in her favor. See Garling
v, 849 F.3d at 1292-1293. In other words, the Court may only dismiss a case for failure to state a
claim under Rule 12(b)(6) where a reasonable person could not plausibly conclude that the facts
alleged could result in a finding of liability. See Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (“A
claim has facial plausibility when the plaintiff pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable for the misconduct alleged.”).
IV.

ANALYSIS
While I recommend that the Court find that the government has a dispositive jurisdictional

argument, it has another argument which is not dispositive. I address that argument first.
A) The government’s argument, that Ms. Silva’s claims arise under the Social Security
Act (because it issues social security numbers and maintains social security records)
thereby precluding her suit under the Federal Tort Claims Act, should be rejected.
The United States’ position that Ms. Silva’s claims are barred under the FTCA because
they arise under the Social Security Act should be rejected. [Doc. 31, pp. 5-7], The First Circuit
found the government’s position as argued here “unacceptable” in Jimenez-Nieves v. U.S., 682
F.2d 1, 3-4 (1st Cir. 1982). There, the government raised the same type of argument it does here that the FTCA claim was excepted by Section 405(h) of the Social Security Act. Id. The appellate
court held that some of Jimenez-Nieves ’ claims did indeed fall within the 405(h) exception, but
not the allegation that an agency employees’ negligent typographical error caused the government
to dishonor benefit checks. Id. at 2-3. The court determined that “[t]he language of § 405(h) [of
the Social Security Act] applies only to a ‘claim arising under th[at] subchapter[]’ [and] [a]n action
for damages based on a tort committed in the course of administering the Social Security Act does
not arise” under the Act. Id. at 3-4. The allegation of negligence, therefore, merited further
examination by the district court for possible recovery under the tort law of Puerto Rico. Id. at 6.

6

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 7 of 11

While Jimenez-Nieves is not binding on this Court, its reasoning is highly persuasive. As
the First Circuit noted, the government’s rationale would effectively abolish a victim’s ability to
sue the United States’ under the FTCA anytime another statutory or regulatory scheme applies
because of the procedural requirements and unique discretion implicated by administrative review.
See 682 F.2d 1 at 3. The better rule is that a tort, otherwise actionable under the FTCA but
committed in the course of administering a different federal law, does not arise under the latter act
for the purposes of excepting the claim from review as a matter of federal jurisdiction. The ultimate
jurisdictional analysis for a tort committed while administering a federal program is whether it is
within the waiver of sovereign immunity in the FTCA.
B) Ms. Silva’s claims are barred by an exception to the FTCA’s waiver of liability,
requiring dismissal for want of federal subject matter jurisdiction.
The FTCA states that “[t]he United States shall be liable, respecting the provisions of this
title relating to tort claims, in the same manner and to the same extent as a private individual under
like circumstances[.]” 28 U.S.C. § 2674. “If a claim against the government falls within an
exception to the FTCA, the cause of action must be dismissed for want of federal subject matter
jurisdiction.” Estate of Trentadue ex rel. Aguilar v. U.S., 397 F.3d 840, 853 (10th Cir. 2005)).
There are many exceptions to the government’s tort liability due to the discretionary nature of
many government actions, but the United States does not invoke those here. Instead, it cites the
exception of Section 2680(h) disallowing “[a]ny claim arising out of assault, battery, false
imprisonment,

false arrest,

malicious prosecution,

abuse of process,

libel,

slander,

misrepresentation, deceit, or interference with contract rights[]”. 28 U.S.C. § 2680(h).
As noted, Ms. Silva’s claim is that an Administration employee negligently issued a Social
Security Number that already belonged to another individual; a second employee negligently
reviewed the first employee’s actions, failing to detect the error; and subsequent employees failed
7

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 8 of 11

to recognize and correct the error(s) in subsequent years. [See Doc. 23]. Ms. Silva does not label
these claims, but federal and New Mexico case law indicate that they sound in defamation,
negligent misrepresentation, interference with contractual rights, and negligent or intentional
infliction of emotional distress based on the injuries to reputational and economic interests for
which Ms. Silva is claiming damages.
i.

Defamation (Libel & Slander):

Ms. Silva’s claims seek to recover for injuries to her economic and personal reputation due
to confusing her financial history with the negative history of another. While the Administration
did not affirmatively spread lies about Ms. Silva, its negligent association of two identities was to
the detriment of her financial reputation. Defamation is excepted from the FTCA waiver of
sovereign immunity by § 2680(h). “The interest served by allowing recovery for defamation ... is
the interest of compensating individuals for injury to reputation.” Smith v. Surden, 2012-NMSC010, K 34, 276 P.3d 943. As a result, “[a]ll ... claims which involve injury to [Ms. Silva’s]
reputation and the consequent harm suffered by [her] when the Social Security Administration
actions ... implicitly communicated defamatory statements about [her] are ... barred by the Federal
Tort Claims Act.” Jimenez-Nieves v. U.S., 682 F.2d 1, 3-4 (1st Cir. 1982).
Although not directly on point, the Tenth Circuit held two years after Jimenez-Nieves that
harm to reputation caused by failure of a federal agency to “correct” its records fits within the
FTCA’s exception for defamation. Bergman v. U.S., 751 F.2d 314, 317 (10th Cir. 1984). Other
circuits have issued similar holdings. For example, the Eighth Circuit reviewed the negligent
maintenance of a CIA agent’s employment records and found that the resulting communication of
false and derogatory information fell within the FTCA defamation exception. Moessmer v. U.S.,
760 F.2d 236, 237-238 (8th Cir. 1985). Likewise, the Fourth Circuit held that a breach of the duty

8

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 9 of 11

to use reasonable care in maintaining the accuracy of personnel records fell within the defamation
exception when harm resulted from untrue communication. Talbert v. U.S., 932, F.2d 1064 (4th
Cir. 1991). As that court said: “[ajrtful pleading cannot alter the fact that [a] claim ‘resounds in
the heartland of the tort of defamation [when] the injury is to reputation [and] the conduct is the
communication of an idea, either implicitly or explicitly.’” Id. (quoting Jimenez-Nieves v. U.S.,
682 F.2d 1, 6 (1st Cir. 1982) (bracketed language supplied)).
Therefore, to the extent that Ms. Silva claims damages to her reputation as a result of the
Administration’s false statements, the United States retains immunity.
ii.

Negligent (and Willful) Misrepresentation:

The Tenth Circuit has defined misrepresentation under the FTCA as violation of the duty
to use care in obtaining and communicating information upon which a party may reasonably be
expected to rely in the conduct of economic affairs. Estate of Trentadue ex rel. Aguilar v. U.S.,
397 F.3d 840, 854-855 (10th Cir. 2005). Proving such a claim requires reliance and pecuniary loss.
Id. As with defamation, harm to reputation caused by failure of a federal agency to “correct” its
records fits within the FTCA’s exception for misrepresentation and deceit. See Bergman v. U.S.,
751 F.2d 314, 317 (10th Cir. 1984). Therefore, to the extent that Ms. Silva claims that she relied
on the misrepresentations of the SSA, resulting in her pecuniary loss, the United States retains
immunity.
iii.

Interference with Contractual Rights:

To the extent that Ms. Silva’s claims state a claim for interference with contract rights, they
are barred by the § 2680(h) exception to the FTCA. The Eighth Circuit case of Moessmer v. U.S.,
760 F.2d 236 (8th Cir. 1985), is analogous. There, the Eighth Circuit reasoned that interference
with prospective economic advantage is the equivalent of a claim for interference with contract

9

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 10 of 11

rights. Id, at 237-38. Ms. Silva claims harm resulting from the Administration’s acts which caused
her to lose out on economic opportunities and advantages she might have otherwise obtained had
she been issued a unique social security number. To the extent that Ms. Silva claims that the
actions of the SSA resulted in interference with her prospective economic advantage, the United
States retains immunity.
iv.

Negligent or Intentional Infliction of Emotional Distress:

Obviously, not all common law claims are barred by the § 2680(h) exception to the FTCA
waiver of sovereign immunity. See Jimenez-Nieves v. U.S., 682 F.2d 1, 6 (1st Cir. 1982).
Intentional infliction of emotional distress is a common example. See, e.g., Estate ofTrentadue ex
rel. Aguilar v. U.S., 397 F.3d 840, 854-855 (10th Cir. 2005). However, under New Mexico law,
prosecution of the standalone tort of negligent infliction of emotional distress generally2 requires
the plaintiff to be a bystander who suffers severe emotional shock due to witnessing trauma to a
family member, and recovery for the tort of intentional infliction of emotional distress requires
proof of “socially reprehensible” extreme and outrageous conduct, not mere negligence. Castillo
v. City ofLas Vegas, 2008-NMCA-141, 145 N.M. 205, 195 P.3d 870. Therefore, to the extent that
Ms. Silva argues that the SSA’s actions caused her emotional distress, the United States retains
immunity because she has failed to state a valid claim under New Mexico’s formulation of both
negligent and intentional infliction of emotional distress.
V.

RECOMMENDATION
Ms. Silva suffered a wrong at the hands of the federal government and has alleged resulting

financial and emotional harm. The FTCA, however, expressly bars her financial claims, and New
Mexico common law does not recognize her emotional distress claim. Therefore, because I
2 With one exception not relevant here. See Madrid v. Lincoln County Medical Center, 1996-NMSC-049, 122 N.M.
269, 923 P.2d 1154.

10

Case l:17-cv-01224-MV-JHR Document 46 Filed 11/12/20 Page 11 of 11

conclude that the Court lacks subject matter jurisdiction over this case, I RECOMMEND that the
United States’ Motion to Dismiss pursuant to Federal Rule of Civil Procedure 12(b)(1) and 12(b)(6) [Doc.
31] be granted, and that this case be dismissed without prejudice.

Jerry H. Ritter
U.S. Magistrate Judge

THE PARTIES ARE FURTHER NOTIFIED THAT WITHIN 14 DAYS OF SERVICE of
a copy of these Proposed Findings and Recommended Disposition, they may file written
objections with the Clerk of the District Court pursuant to 28 U.S.C. § 636(b)(1).
A party must file any objections with the Clerk of the District Court within the fourteenday period if that party wants to have appellate review of the proposed findings and
recommended disposition. If no objections are filed, no appellate review will be allowed.

11

